<html>
<title> - NOW HIRING: HOW THE OPIOID EPIDEMIC AFFECTS SMALL BUSINESSES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


      NOW HIRING: HOW THE OPIOID EPIDEMIC AFFECTS SMALL BUSINESSES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 13, 2018

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               
                               

            Small Business Committee Document Number 115-089
             Available via the GPO Website: www.govinfo.gov
                   
                   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-444                    WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d3c4dbf4d7c1c7c0dcd1d8c49ad7dbd99a">[email&#160;protected]</a>                                 
                   
                   
                   
                   
                   
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                            
                            
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

Mr. Ben Gitis, Director of Labor Market Policy, American Action 
  Forum, Washington, DC..........................................     4
Ms. Katie Van Dyke, Director, Ohio Small Business Development 
  Center, Cleveland State University, Cleveland, OH, testifying 
  on behalf of America's SBDC....................................     5
Ms. Lisa Allen, President & CEO, Ziegenfelder Company, Wheeling, 
  WV.............................................................     6

                                APPENDIX

Prepared Statements:
    Mr. Ben Gitis, Director of Labor Market Policy, American 
      Action Forum, Washington, DC...............................    17
    Ms. Katie Van Dyke, Director, Ohio Small Business Development 
      Center, Cleveland State University, Cleveland, OH, 
      testifying on behalf of America's SBDC.....................    31
    Ms. Lisa Allen, President & CEO, Ziegenfelder Company, 
      Wheeling, WV...............................................    35
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
      NOW HIRING: HOW THE OPIOID EPIDEMIC AFFECTS SMALL BUSINESSES

                              ----------                              


                      THURSDAY, SEPTEMBER 13, 2018

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2360, Rayburn House Office Building. Hon. Steve Chabot 
[chairman of the Committee] presiding.
    Present: Representatives Chabot, Knight, Blum, Fitzpatrick, 
Marshall, Balderson, Velazquez, Evans, and Lawson.
    Chairman CHABOT. The Committee will come to order. I want 
to thank everyone for being here today.
    The American economy is soaring. Significant growth is 
occurring as we speak and Americans, especially entrepreneurs, 
are once again optimistic about the future of their businesses. 
Just two days ago the National Federation of Independent 
Business Small Business Optimism Index soared to a new record 
high in the survey's 45-year history, showing that small 
businesses are finally feeling confident and are ready and 
willing to execute plans to grow their businesses. However, 
many small businesses are now facing a new challenge in 
finding, hiring, and retaining qualified workers. The NFIB also 
noted that 62 percent of small businesses reported trying to 
hire new employees with 89 percent of those businesses 
reporting finding few or no qualified applicants. A record 25 
percent of small businesses cited the difficulty of finding 
qualified workers as their single biggest problem, up 2 points 
from just last month.
    Today, we are here to examine why that might be. In recent 
Small Business Committee hearings, we have heard reports about 
how the opioid epidemic is impacting small businesses across 
this nation. Driven by the rise in opioid prescriptions and the 
influx of illegal opioid drugs into communities, drug addiction 
has grown in the United States in recent years. The opioid 
epidemic touches families and communities all across this 
country, so much so, in fact, that President Trump declared the 
epidemic a public health emergency almost one year ago today. 
We have seen that the opioid crisis has the ability to impact 
businesses, too. Many young working age Americans are not 
working or actively seeking work as a result of opioid 
addiction, impeding the ability of businesses to fill important 
job openings. In 2015, an estimated two million workers were 
not in the labor force due to the opioid epidemic. According to 
a recent report by the National Safety Council, more than 70 
percent of United States employers have been affected by 
employees' prescription drug use.
    We want to hear from our witnesses today and we appreciate 
that they have taken time away from I am sure important 
obligations that they have and their busy schedules to share 
their expertise with us on this very important topic, and we 
look forward to having a very productive discussion here this 
morning. So we want to thank you for being here.
    And I would now want to recognize the Ranking Member, Ms. 
Velazquez, for her opening statement.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman. America's economy 
has improved since the Great Recession and unemployment is at 
an 18 year low. But while most signs of economic gains are 
promising, the labor participation rate has been on a decade's 
long decline.
    As in previous hearings, we have heard what a challenge the 
workforce decline has had on small firms all over the country. 
With low unemployment rates, small employers are reporting 
difficulty finding qualified and skilled workers. Analyzing the 
United States workforce reveals two areas of concern, an 
existing skills gap among workers and a shrinking workforce. 
These problems are magnified by the opioid crisis. More than 
two million people struggle with opioid addiction, which is now 
one of the deadliest public health crises in modern history. 
This epidemic is not only wreaking havoc on our communities but 
also ravaging our workforce. In the last 15 years over 20 
percent of the decrease in labor participation can be 
attributed to the increase in opioid prescriptions. For 
businesses, this reality has real consequences. If we are 
unable to meet the demand for trained workers it will weaken 
our ability to compete globally.
    For individuals this reality has even more devastating 
consequences. In 2016 opioid overdoses killed more than 42,000 
Americans, more than car crashes and guns combined. And those 
addicted to opioids are three times less likely to have 
completed post secondary education, adding an additional 
barrier to reentering the workforce. This epidemic begs the 
question of how we address the skills gap to get qualified 
people back into the workforce to fill these jobs.
    It is critical to reengage adults who have left the labor 
force due to opioid addiction. Access to treatment must be 
widely available from drug rehab and medical interventions to 
non addictive alternatives to pain management. According to 
NIH, the most successful addiction treatment programs teach 
coping skills, mobilize community forces, and instill values 
toward pro social behaviors, such as meaningful jobs. Such 
efforts are a critical part of today's discussion for both 
economic and addiction recovery.
    Too many American workers have been left behind because of 
addiction, to the detriment of small firms and entire families. 
To assemble the workforce that American businesses need to 
thrive, policy makers, educators, and businesses need to 
collaborate to find a solution to the opioid epidemic.
    I look forward to today's hearing and I thank the witnesses 
for being here today. Thank you.
    Mr. Chairman, I yield back the balance of my time.
    Chairman CHABOT. Thank you very much. The gentle lady 
yields back.
    And before I introduce our witnesses and go into our timing 
rules, I would like to recognize we have a new member of our 
Committee, Troy Balderson, who is from the great State of Ohio, 
which happens to be my State. He came to Congress replacing Pat 
Tiberi and prior to that, that District had been held by John 
Kasich, who is the current Governor of Ohio. And Troy was sworn 
in just last week. We are delighted that he was selected for 
the Small Business Committee, a most important Committee in the 
House. And his experience as a State Senator and being involved 
in two family-owned businesses will be a great asset to this 
Committee. So we welcome him here.
    And if Committee members have an opening statement 
prepared, I ask that they be submitted for the record. Without 
objection, so ordered.
    And I will take just a moment to explain our timing rules. 
They are pretty simple. You get 5 minutes. And there is a 
lighting system to assist you. The green light will be on for 4 
minutes, the yellow light will come to let you know you have 
got a minute to wrap up, and then the red light will come on 
and we would ask that you try to end your statement. At that 
time, if you need a little time to wrap up, that is okay.
    And I would now like to introduce the witnesses. And we 
will begin with our first witness, Mr. Ben Gitis, who is the 
Director of Labor Market Policy at the American Action Forum. 
He has written extensively about the opioid crisis and his work 
has been referenced by news publications such as the Wall-
Street Journal, the Washington Post, and many others. We thank 
you for being here today.
    Our second witness will be Ms. Katie Van Dyke, who is the 
Director of the Ohio Small Business Development Center, or 
SBDC, at Cleveland State University in Cleveland, Ohio. In this 
role, Ms. Van Dyke works to provide free training and advice to 
startups and entrepreneurs and existing businesses seeking to 
scale and grow. And we thank you for being here.
    And I would now like to yield to the Ranking Member for 
introducing our third and final witness.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman. It is my pleasure 
to introduce Ms. Lisa Allen, President and CEO of Ziegenfelder 
Company, a privately held family owned business in Wheeling, 
West Virginia. Her company manufactures and sells Budget Saver 
popsicles. In the past 10 years the company has grown from 75 
employees to over 300 across 3 locations. Ms. Allen has been 
widely recognized for her compassionate hiring practices and 
dedication to her local communities. Welcome, Ms. Allen. Thank 
you for being here.
    Chairman CHABOT. Thank you very much. And we welcome you.
    And, Mr. Gitis, you are recognized for 5 minutes.

   STATEMENTS OF BEN GITIS, DIRECTOR OF LABOR MARKET POLICY 
  AMERICAN ACTION FORUM; KATIE VAN DYKE, DIRECTOR, OHIO SMALL 
 BUSINESS DEVELOPMENT CENTER LAKELAND COMMUNITY COLLEGE; LISA 
          ALLEN, PRESIDENT & CEO, ZIEGENFELDER COMPANY

                     STATEMENT OF BEN GITIS

    Mr. GITIS. Chairman Chabot, Ranking Member Velazquez, I am 
pleased to be here.
    A few months ago I was in Boston for an opioid event and 
there was a construction business owner who told us the story 
where he was at a job fair and he told a room full of people if 
you can pass a drug test you have a job. Half the room left. We 
have heard stories like these from small business owners 
countless times. And it has made me interested in gauging just 
how many workers could be out of the labor force due to opioid 
dependence.
    And so my work at the American Action Forum has focused on 
three main areas. First, I just wanted to identify what is the 
source of this crisis and why are overdose fatalities rising. 
And I found from 1999 to 2010 prescription opioids were really 
the source of rising dependence and rising overdose fatalities. 
The supply of prescription opioids grew, and along with it was 
a growth in prescription opioid involved overdoses. But in 2010 
there as a pretty major shift in response to several policy and 
private sector initiatives. The supply of prescription opioids 
peaked and then began to decline. Along with it, overdose 
fatalities caused by those drugs flat lined, but overdose 
fatalities caused by illegal drugs like heroin and illegal 
synthetic opioids both spike. And that is why today we are 
seeing an acceleration in the total number of opioid overdose 
fatalities.
    Second, my research has quantified the number of workers 
nationwide who are out of the labor force and what that means 
for the U.S. economy. I estimate that between 1999 and 2015 the 
prime age labor force participation rate--that is people 25-
54--that rate declined by 1.6 percentage points. That means 
that in 2015 two million workers were absent from the labor 
force due to opioids. It also means that it was a major drag on 
U.S. economic growth. The figure suggests that during that time 
period the U.S. economy lost out on $1.6 trillion in real 
economic output. In other words, had these workers been in the 
labor force, the economy would have grown about 30 percent 
faster.
    The research also indicates that female workers left the 
labor force slightly more frequently than male workers due to 
opioids. And it also suggests that small businesses were 
particularly heavily impacted by this crisis.
    The third point that my research has focused on is 
estimating just how many workers are out of the labor force and 
what is the impact on the economy in every state due to the 
opioid crisis. And I found that the impact varies considerably 
by state. The two states that are by far the most severely 
impacted by this crisis are West Virginia and Arkansas. Their 
prime age labor force participation rates fell by 3.8 
percentage points due to opioids. To put that in perspective, 
remember that the nationwide decline was 1.6 percentage points. 
So it is pretty clear that these states are being ravaged by 
the crisis.
    Other states that are being negatively affected are 
Missouri, Kentucky--and then if you look at the states across 
the country, the states that tend to be more negatively 
affected are located in the southeast and the Midwest. So you 
have states like Ohio, where the participation rate declined by 
2 percentage points, and also Louisiana, Tennessee are seeing a 
pretty negative effect. And I should also mention that New York 
also experienced a pretty significant decline in labor force 
participation, about 3 percentage points, due to opioids.
    Now, I have a lot of data on a lot of states, but I will 
leave it there. And I am happy answer any questions you have.
    Thank you.
    Chairman CHABOT. Thank you very much. Ms. Van Dyke, you are 
recognized for 5 minutes.

                  STATEMENT OF KATIE VAN DYKE

    Ms. VAN DYKE. Thank you Mr. Chairman , Ranking Member 
Velazquez, and members of the Committee. It is an honor to be 
here to speak with you today about how the opioid epidemic 
affects small businesses.
    I am Katie Van Dyke, Director of the Ohio Small Business 
Development Center at Cleveland State University. I am proud of 
the work that we at the Small Business Development Centers do 
to support our local small businesses, who are the critical 
components and major contributors to the strength of our local 
economies.
    The Small Business Development Center program provides 
assistance to small businesses and aspiring entrepreneurs 
through no cost business advising around business plan 
development, financial packaging, lending assistance, 
exporting, and market research. The SBDC Program is made 
possible through a collaborative partnership between our 
Congressional champions, the Small Business Administration, and 
state hosts. Last year alone the Ohio SBDC Program helped 722 
entrepreneurs start their business. We worked with existing 
business owners to access $230 million in capital. Our clients 
created or retained nearly 14,000 jobs, and we worked with more 
than 500 companies to increase export sales by $99 million. But 
a significant challenge to Ohio's current business operations, 
in both the urban or rural communities, is Ohio's opioid 
crisis.
    Here are the statistics, which is a snapshot of Ohio. In 
Ohio, from 2016-2017 overdose deaths due to opioids increased 
39 percent and Ohio was the third largest increase among the 
states. Fourteen people die a day from opioid addiction. These 
deaths aren't the stereotypical ``junkie'' on the street, they 
are people involved in the community, your average American, 
workforce age. Sixty-eight percent of Ohio's injured workers 
were prescribed narcotics in 2016. Unintentional drug overdoses 
that may have started as a prescription for a surgery or 
injury, cost an average of $5.4 million each day in medical and 
work loss costs in Ohio. Over 2,500 people of employment age, 
between ages 25 and 64, in Ohio died of an opioid overdose in 
2017 alone. Half of Ohio businesses reported suffering 
consequences due to substance abuse, including absenteeism and 
decreased productivity of their employees, and a shortage of 
workers who can pass drug tests.
    There are many more examples of clients who are wondering 
just how to deal with the opioid crisis. It goes beyond the 
addicted employee or the shortage of applicants that can pass a 
drug test. Opioid addition is affecting employees and their 
families. This is happening everywhere. This is a problem all 
businesses are facing, or will face, in the near future at the 
rate we are going in Ohio.
    Thankfully, there are many great resources that are on the 
ground working to educate employers and employees alike. But, 
there is a lot of work to do. Getting the information out 
quickly and reaching the small business owner is a challenge we 
face. The Ohio SBDC at Lakeland Community College created a 
workshop called ``The Opioid Crisis in the Workplace: The 
Proactive Role Employers Can Take''. This workshop was built to 
be easily replicable for each SBDC in the different counties to 
offer and customize with local subject matter experts.
    We are also partnering with our local Chamber to hold this 
workshop in Cuyahoga County in October, and we can even offer 
continuing education credit to the HR professionals that 
attend. We are also working to share the resources from 
partners that are available to small businesses when we advise 
them. There is a drug free workplace training program offered 
by The Ohio Bureau of Worker's Compensation. And the Ohio 
Chamber of Commerce collaborated with WorkingPartners in Anthem 
to develop a free opioid toolkit containing webinars for 
customizable printable resources for use in the workplace.
    The most important thing we as a community can do is to get 
everyone to talk about the facts, the staggering statistics, 
and breakdown the stigma that this is someone else's problem. 
It affects us all, whether directly or indirectly. As business 
advisors, if we can face this problem with as much knowledge as 
possible, we will be better armed for changing the statistics 
and creating a healthier workforce.
    Chairman CHABOT. Thank you very much. Ms. Allen, you are 
recognized for 5 minutes.

                    STATEMENT OF LISA ALLEN

    Ms. ALLEN. Good morning, Chairman Chabot and members of The 
Small Business Committee. Thank you for the opportunity to 
testify before you to discuss the opioid epidemic and to share 
our culture and our solutions for change in our business and in 
our communities. I hope that by sharing our story we can make a 
dent in this terrible drug epidemic.
    My name is Lisa Allen; I am the President and CEO of The 
Ziegenfelder Company, a privately held, family owned business 
located in Wheeling, West Virginia. We ``make people smile with 
really cool treats'' manufacturing Budget Saver twin pops and 
other frozen items.
    Since 2003, Ziegenfelder has averaged 12 percent year-over-
year growth in a grocery category that has been flat to 
declining, making Budget Saver products the market disrupter. 
With three manufacturing facilities in West Virginia, 
California, and Colorado, operating continuously, our Budget 
Saver products can be found in grocery stores in nearly every 
community across the country. Last year we proudly sold over 40 
million bags of pops into homes in America.
    While we are proud of this growth, the source of my pride 
comes from our team we call a Tribe. We are individuals, 
families, and a community linked by our culture, our practices, 
and our vivid vision. All members of our Zieggy Tribe benefit 
from our committed, compassionate hiring practices. Our doors 
are open to nearly anyone who is willing to work hard, grow and 
develop, and can commit to our Zieggy Essentials.
    Perhaps our hiring practices emerged from our culture and 
our commitment to our Tribe. Yet, we intentionally refocused 
our hiring practices from the harsh reality of our shrinking 
workforce caused by the devastating effects of drug addiction, 
which knows no bounds. Addicts are our sons, our daughters, our 
mothers, our fathers, and our friends. Diversity of potential 
talent and intellect are interrupted and hijacked by drug 
addiction. Yet with hope, recovery, and connections, a person's 
resilient spirit can rise again.
    At Ziegenfelder we offer a safe environment where Tribe 
members have a place to recover and prosper. We feel validated 
when our employees are in trouble, they look inward to each 
other and our leaders and ask for help. When our Tribe is 
hurting, we are hurting too. We take an active role in 
developing connections with people in our Tribe, demonstrating 
our care for each person. Intentionally connecting, asking 
about their lives, and building relationship with people who 
feel isolation or have lost connections can make the difference 
in addiction relapse and re-incarceration.
    Just this last Saturday, I subtly honored one person 
celebrating three years clean and another who had their ankle 
bracelet removed, with a hug and a high five. Hugely meaningful 
milestones in recovering and in their changing lives.
    In our Zieggy Tribe, loosely structured peer groups have 
emerged, addressing issues they surface and work together to 
solve. We work with social service agencies, our medical 
community, law enforcement, parole and probation officers on a 
case by case basis, working to employ and assist recovery and 
reentry. We have visited state and federal prisons, we have 
participated in job fairs inside jails, in re-entry 
simulations. And in partnership with the West Virginia Division 
of Corrections and Rehabilitation, members of our Tribe have 
become certified Addict Recovery Coaches. We work closely with 
the halfway houses in Denver, Colorado. We are working with the 
West Virginia Department of Corrections on a pilot work release 
project with our Northern Regional Jail. Currently incarcerated 
men with excellent conduct records at the tail end of their 
sentences, walk three blocks to our facility, work an eight 
hour shift and walk back to the jail. A win-win.
    While we are compassionate and have open hearts, we are not 
foolish. We have customers and a business to run. We are 
grateful that most of our Tribe is also committed to protecting 
our business and each other. We are a close-knit, trusting 
community and people look out for each other. Inclusion is our 
strength and our competitive advantage.
    Standing idle, often in judgment of others, doing little 
but measuring and analyzing statistics does not erase mistakes 
nor change the spiraling impact of addiction. Even worse, it 
may perpetuate crime and other debilitating problems. We 
believe a job and connections are the best antidote. And this 
belief has been affirmed over and again by our Tribe members.
    The drug epidemic is devastating, yet we believe in the 
resiliency of the human spirit. It takes courage to stand up 
and make change, it takes courage to believe, and it requires 
courage to take the first step. We will continue to embrace the 
opportunity to demonstrate and reward this courage.
    Our results are not without failures. This is messy, and 
unfortunately we have many failures. However, we learn from 
those disappointing circumstances and we know the next person 
deserves our open hearts just as much as the last. I am proud 
of our Tribe. Drug addiction and associated social problems 
know no bounds. We are working to combat this enemy one person, 
one family at a time. We know to each person that we touch and 
we can help, we make a difference.
    Thank you for this opportunity to share our story and I 
look forward to your questions.
    Chairman CHABOT. Thank you very much. And I will recognize 
myself to begin the questioning for 5 minutes
    And, Mr. Gitis, I will begin with you. You had mentioned in 
you testimony that you felt that small businesses were 
particularly affected as opposed to larger companies by this 
opioid addiction. Why is that and how is that affecting small 
business across this country?
    Mr. GITIS. So small businesses, by the sheer quantity of 
them, a lot of workers are employed by small businesses. So 
just on that basis alone, they will be negatively affected by 
this crisis. A rough estimate suggests that about 45 percent of 
these absent workers, or about 900,000 of them would have been 
employed by a business with under 50 workers.
    And it is also important to keep in mind that small 
businesses have fewer resources in terms of attracting 
employees, so they have to rely on things like job fairs and 
all that. And so that would also be difficult for them.
    Chairman CHABOT. Thank you. Ms. Van Dyke, I will go to you 
next. If a client comes to the Ohio SBDC and has a problem with 
opioids in the workplace, could you walk us through the steps 
that you would take in trying to help them?
    Ms. VAN DYKE. Sure. My biggest role in that situation would 
be to connect them with the resources available. Unfortunately, 
small businesses do not have a lot of resources for maybe an in 
hours HR, but there are quite a few resources in Ohio. For 
example, Working Parners is a consulting firm that would help 
them. And the Ohio Bureau of Worker's Compensation could help 
them to implement a drug free workplace. Maybe not at that 
point, but we could also educate them and educate the other 
employees. We would also need to walk them through 
understanding, possibly helping that employee to get into rehab 
and offering them a second chance based on getting clearance 
from a counselor and going through some rehab and recovery.
    Chairman CHABOT. Okay. Thank you very much. Ms. Allen, I 
will go to you next. Your story and your commitment to your 
community is very inspiring. What are the most rewarding and 
most challenging parts of hiring recovering addicts and others 
reentering our community?
    Ms. ALLEN. Well, thank you for your question. Rewarding is 
seeing success, it is watching people who feel like they have 
no hope, came from a bad situation, are reentering and have no 
home to go to, finding a home with us, finding a work home with 
us, the opportunity to earn an income and to make connections. 
Fortunately, just by chance just outside of my office is the 
time clock for our business, and so I get to see our folks 
every single day and I can have conversations and build 
relationships. That is incredibly rewarding. And I think it 
gives people the connection that they need that they don't 
have.
    The most difficult is knowing that somebody didn't come 
back to work, didn't show back up to work, to know that we have 
lost the life of past co-workers due to this addiction. That is 
the hardest part, but we plug through.
    Chairman CHABOT. Thank you.
    Ms. ALLEN. You are welcome.
    Chairman CHABOT. Would anybody like to cover any concerns 
that companies might have, liability issues if they are hiring 
folks who may have struggled in the past and have been facing 
challenges of addiction?
    Ms. Van Dyke, would you like to talk about that?
    Ms. VAN DYKE. Sure. As a small business owner, like I said 
before, you have limited funds to spend on an HR or HR 
policies, but there are, like I said, free resources out there 
so that you can develop programs so that when you are bringing 
someone on board that maybe has some previous history with drug 
abuse or drug addiction, that you can put them into a program 
and know that all of your employees are educated. And they are 
also affecting their families by bringing the education home 
and talking to their kids and learning more about the addiction 
and possible--who of your employees could be more addicted than 
others.
    It is also about not only educating your employees, but 
having, like I said, the policies in place, things that are 
going to protect you as a business so that there are no 
liability issues. If an employee does injure someone because of 
the addictions, the come to work addicted, maybe they are high 
or something and they have an accident at work, knowing how to 
deal with that in a legal--and having your HR policies is 
really important.
    Chairman CHABOT. Thank you very much. My time is about to 
expire, so I will turn to the gentleman from Florida, Mr. 
Lawson, who is the Ranking Member of the Subcommittee on Health 
and Technology for five minutes.
    Mr. LAWSON. Thank you, Mr. Chairman. And this question will 
be to everyone on the Committee. How can the federal government 
provide support to small businesses who hire those recovering 
from addiction? And what other resources exist for those 
companies outside of the government? And I would like to have 
all of you all to respond for that, respond to it.
    Mr. GITIS. I am not sure what is available for small 
businesses in order to help their employees treat addiction. I 
am not an expert on health issues. I am more focused on the 
workers themselves. But that is something I can look into.
    Mr. LAWSON. Well, from the standpoint of federal 
government, you have no recommendations?
    Mr. GITIS. Well, just in general overall, there needs to be 
a more comprehensive approach than what has been employed so 
far. Around 2010 there was just a focus on prescription opioids 
and now we have accelerating overdose tests with other types of 
drugs. And so there needs to be more focus on treating actual 
addiction and also addressing the unlawful drugs, like illegal 
synthetic opioids and heroine.
    Mr. LAWSON. I will go to Ms. Van Dyke.
    Ms. VAN DYKE. There are many things the government can do, 
especially focusing on spreading the word. Small businesses 
sometimes have a hard time approaching or asking for help, so 
just supporting the education and getting the word out there 
and talking about the issues is very helpful. Having easy 
access to resources is very helpful for small businesses so 
that they can begin to understand the addiction and education 
around it and get it out there to their employees.
    Mr. LAWSON. Okay. Ms. Allen?
    Ms. ALLEN. So my answer might be a little bit different. I 
think as a small business owner, I think small businesses--for 
us speaking specifically--I would much rather the federal 
government rather than support us, I think the problem is so 
pervasive that I would rather whatever money you would be 
interested in giving us, put into education, into the education 
system, and into mental health issues because addiction is an 
outcome to me in a lot of cases. Addiction is the result of 
isolation, of mental health issues, of lack of education, a 
lack of connections, a lack of the humanness that need to exist 
in our world. So I think our education is a great place to 
start and then more emphasis on another great place, in the 
corrections system. Preparing people who are leaving the 
Department of Corrections so that they know how to get out and 
when they get out what to do, where to do, how to get a job, 
how to hold a job, all those kinds of things.
    Mr. LAWSON. Okay. And it is obvious from what you have 
stated that--do you find any help that comes from SBA?
    Ms. ALLEN. We don't specifically, no.
    Mr. LAWSON. You don't specifically know? Do any of you all 
know whether SBA provides any educational opportunities for 
small businesses besides just applying for a loan or something 
of this nature?
    Ms. VAN DYKE. I can answer that. We are powered by the SBA. 
Basically our funding provides us to provide free technical 
support. So we feel like we are the soldiers on the ground 
because of our SBA grant. So we are out here as small business 
advisors working with small businesses and finding those 
resources for them to make their lives a little easier. Because 
there are quite a few resources for small businesses. It is 
just that we have a hard time marketing, obviously, from our 
funding. We are focused on working.
    Mr. LAWSON. So with the few seconds I have left, do you 
think there will need to be more emphasis from SBA to small 
businesses educational, the emphasis on how to help small 
businesses with this crisis?
    Ms. VAN DYKE. It should be an initiative for sure.
    Mr. LAWSON. Okay. Mr. Chairman, I yield back.
    Chairman CHABOT. The gentleman yields back. Thank you very 
much. The gentleman from California, Mr. Knight who is the 
Chairman of Subcommittee on Contracting and the Workforce, 
recognized for 5 minutes.
    Mr. KNIGHT. Thank you, Mr. Chairman. This is a good 
hearing. I wish we didn't have to have this hearing, but it is 
a good hearing to see what is happening in America.
    You know, in my district we have a lot of aerospace and the 
number one thing is when you get your DoD clearance, obviously 
you cannot have any drug addictions, use, or anything. Living 
in California we have new laws and new things that are going on 
out there that are different--and I can probably always say 
that--but they are making it so that some of our young folks 
think that it is okay to do a certain drug and then they can 
get their clearance. Obviously that cannot happen. So we are 
trying to educate young folks.
    We are also having a problem, especially in my district and 
others in southern California, to find people that can pass a 
drug test to just show up for work. And that is one of the 
biggest issues when we go out on a job fair or something like 
that is the first thing is we want you to pass a drug test for 
certain jobs.
    So my questions are more on line with that. And, Ms. Allen, 
I liked your testimony and I liked the way that you framed it. 
We want to help people and we want to give them a chance and if 
they take that chance, then great. If they don't, we also know 
we have got to run a business, we have got to make sure the 
business makes money for all the people that are employed here. 
And it continues on. So if you take advantage of that chance, 
then great.
    So I would like to hear some of the kind of the stories--
not the stories, but tell me what you have done when you have 
found somebody who has come into work and now you have found 
that they haven't exactly followed the rules. What is the 
process there?
    Ms. ALLEN. Well, thank you, Mr. Knight, for your question. 
The process is typically those things surface for us--as I 
stated the kind of ad hoc peer groups that have developed, the 
people helping people--the information surfaces, it works its 
way through our organization, typically gets quickly to our 
plant management and our HR department and if the person is 
willing and interested in assistance we work with our social 
service agencies, we work with counselors. Sometimes once it 
comes up they just disappear, they don't come back. That 
happens a lot, unfortunately. But there are connections. We are 
in a small community. We are in little Wheeling, West Virginia. 
We have a population that is, you know, 25-35,000 people and so 
a lot of people know each other. And so the connections are 
there. Typically----
    Mr. KNIGHT. And you might be the biggest employer.
    Ms. ALLEN. Pardon me?
    Mr. KNIGHT. You might be the biggest employer. Is that 
close?
    Ms. ALLEN. Well, we are not because we have two other 
facilities. But we are a large employer in the community, about 
150 people locally. And people connect. So we rehire as well. 
So if somebody leaves, disappears, you know, we don't know 
where they are for a few weeks and then they come back and they 
share their story and we talk. And we don't drug test on the 
front end anymore. What we do though is we have done a lot of 
training on reasonable suspicion. So we know what to look for, 
we know signs to look for and we pay attention. And there is 
word, you know, amongst our Tribe. So we kind of self-regulate.
    Mr. KNIGHT. So it is interesting to hear business owners 
talk about trying to help people with a drug addiction, and 
what you do and what you can't do. Obviously if somebody came 
in and they were working for me and I caught them stealing 
something I would fire them right there. With a drug addiction 
you can hear--and I hear this from businesses all the time--we 
are trying to help you, you have got to help yourself. So if 
you, you know, leave for those two weeks you come back and you 
explain what went on and we are still going to have some 
compassion for you, but understand that we want you to get 
moving. And so there is some tough love there to.
    Ms. ALLEN. There has to be.
    Mr. KNIGHT. In my previous life I was a Los Angeles police 
officer and we had the DARE program. And when I started in 1990 
the DARE program had been going for five, or six, or seven 
years, or something like that. It was very heavy into the 
school districts and making sure the kids knew if you do this 
you have already put yourself in a difficult situation. So 
don't start, don't think that you can just do it and then 
everything will be okay, you will just not do it again.
    I think that we should go back to a lot of these types of 
programs in America, whether they are local or some big just 
say no DARE program that gets kind of a universal American look 
at drug use. Drug use in America has been one of our greatest 
black eyes, as it is, and we have got to figure out new and 
innovative ways. And I think some of these programs that 
infiltrate locals and go around the whole country is the way to 
do it.
    Thank you, Mr. Chairman. I yield back.
    Chairman CHABOT. Thank you. The gentleman's time has 
expired. The gentleman from Pennsylvania, who is the Ranking 
Member of the Subcommittee on Growth, Tax, and Capital Access. 
You are recognized for 5 minutes.
    Mr. EVANS. Thank you, Mr. Chairman. Mr. Chairman, I would 
like to thank you and the Ranking Member for just organizing 
this panel. It could not be more appropriate at this time.
    Ms. Allen, what supports have you found to be the most 
useful in decreasing the likelihood of relapse?
    Ms. ALLEN. Connections. Making, building relationships. In 
my experience, what we have seen and what I have heard, drug 
addiction creates isolation. A lot of what Mr. Knight was 
talking about, about stealing, the two kind of go together a 
lot of times. So people find themselves very isolated. They 
don't feel connected to anybody. So by building connections it 
makes people feel important, they feel loved, they feel 
included. And with that, they ask themselves--I just had this 
conversation the other day--they ask themselves, do I want this 
life or do I want this life. These people are nice to me and 
they take care of me and they care about me. I think I will go 
another clean day, I will go another clean day.
    And it is a flywheel, it is truly a flywheel. We find 
support with our counseling services in our community, we find 
support with the social service agencies. But I think it is 
really just helping people with connections and letting them 
know that people care about them. One of the things that I feel 
very strongly, and we feel very strongly in our business, is 
those words that haven't always been hard business terms, like 
care and commit and compassion, those are true leadership 
skills and those are true business terms. And we use them often 
and frequently and I think it helps with the connections and it 
helps people overcome
    Mr. EVANS. As sort of a follow up, obviously you cannot 
legislate connections. That is the rumor I hear. I don't know, 
maybe somebody who has been around here longer than I can 
figure that one out. Then what are the conditions that sets it 
up to just understand what you just expressed, which I assume 
you learned from experiences?
    Ms. ALLEN. Gosh, I wish I had a good answer for that. I 
think it is conversations like this, to be honest. I think it 
is conversations that recognize that this is a human issue and 
people are resilient. And addicts don't want to be addicts. I 
mean I have never experienced it myself, thank goodness, but I 
don't believe that somebody in such a miserable state is there 
by choice. So I think it is incumbent upon all of us to 
recognize the humanness of it and to help people through 
funding sources, through, as I said before, helping people who 
are leaving incarceration after whatever their length of term 
was. Most of them, a lot of them, the ones I have experienced, 
really do want to change, really do want to change. I spoke 
about the work release program we have with our local jail. We 
have one gentleman, I just learned yesterday or the day before, 
I approached him and he told me that he has two bachelor's 
degrees and a master's degree in chemical engineering. And he 
is a pretty good mechanic too. And he gets out soon, and he 
likes his job.
    Mr. EVANS. Thank you.
    Ms. ALLEN. So they are no different than you and I, other 
than that they made a bad choice, a lot of bad choices. But 
they are human and they are intelligent and they have value and 
they are labeled for life. And I don't know that that is 
necessarily fair.
    Mr. EVANS. Thank you. Mr. Chairman, I wonder if with Ms. 
Van Dyke I can get a question in or?
    Chairman CHABOT. Sure.
    Mr. EVANS. Thank you.
    Chairman CHABOT. Yeah, you have got time.
    Mr. EVANS. You discuss efforts that the SBDC is taking to 
assist employers who are struggling with employees impacted by 
the opioid crisis. What, if any, supports are you providing to 
assist in filling the skills gap problem that small business 
have because of the opioid epidemic.
    Ms. VAN DYKE. Thank you for your question, Mr. Evans. That 
is a tough one. We rely heavily on Ohio Means Jobs. They have a 
wonderful massive data base full of employees seeking jobs. So 
when our small businesses are looking for employees we work 
with Ohio Means Jobs to help them kind of sift through the data 
base of people looking. But, again, I just think it goes back 
to education around our small businesses and what they are 
looking for in skills versus what is available.
    Mr. EVANS. Thank you, Chairman.
    Chairman CHABOT. Thank you, thank you. The gentleman's time 
now has expired. The gentleman from Kansas, Dr. Marshall, is 
recognized for 5 minutes.
    Mr. MARSHALL. Okay, thank you, Mr. Chairman. Maybe I want 
to focus on prevention for a second, see if you all have any 
suggestions. You know, I am a physician myself. It is said that 
80 percent of people on opioid addiction problems started off 
with a legal physician prescription. I think that number is 
pretty high, but I am going to assume it is right. So across my 
district I am seeing clinics, physicians develop protocols how 
to handle chronic pain. That kind of keeps some of the patients 
from doctor shopping, bouncing around. And the next sort of 
protocol is how to handle acute pain, post-operative pain, 
those types of things.
    Are you all seeing that happening in any of your home 
states, doctors are taking responsibility to do this? Ms. Van 
Dyke, are you seeing some of that?
    Ms. VAN DYKE. Yes. And I am not a medical official at all, 
but in Ohio I know we use the AORRS system, which a doctor can 
get information on previous prescriptions and other things for 
each client that they have so that they are better 
understanding what they have been taking and who they have been 
seeing. I think that is very helpful. And I think that the 
changes in the medical community and the knowledge that they 
have of the addictions that are happening because of the 
prescriptions is definitely really impacting and lessening the 
opioid prescriptions that are just going out to everybody. It 
has definitely made a difference in Ohio.
    Mr. MARSHALL. Okay. Mr. Gitis, are you seeing anything 
happening and improving in that area?
    Mr. GITIS. Yes, you can see it in the data, changing 
behaviors, and also in response to changing attitudes and 
policies. The supply of prescription opioids in the United 
States has been declining each year since 2010 by about a 5 
percent rate. So that is good news. And I think it would help 
limit the number of folks who are exposed to opioids in the 
first place. The tricky part is addressing those who are 
already addicted and those who are using the illegal 
substances.
    Mr. MARSHALL. Okay. Is there anything else that you all can 
think, whether it would require--I don't care where the--I 
actually would prefer staying away from the federal government 
dictating new rules. What else can the medical folks do that 
they are not doing now to decrease the number of people 
becoming addicted to narcotics? Are you seeing any better 
practices out there? Anything else that you are seeing?
    Go ahead, Ms. Allen.
    Ms. ALLEN. I can only speak from personal family 
experience, that it appears that it is well regulated and well 
controlled. So that possibly, you know, obviously it doesn't 
create addiction or cause addiction. I think in our family 
case, you can see the process working. I think what is 
happening though is it is to Mr. Gitis' point, it is not the 
prescription opioids anymore, it is the synthetics that are on 
the street. It is the synthetics that are on the street that 
are causing the greatest devastation at this point. I can't 
speak to that statistically, but that is what I feel.
    Mr. MARSHALL. Yeah, I think that is absolutely right. You 
know, fentanyl is the big synthetic drug that China is making 
and shipping over by our U.S. Postal Service and for some 
reason our U.S. Postal Service doesn't know where the package 
is coming from. And one of the things we have recently done is 
passed legislation to hold them accountable as well. And people 
just don't realize how powerful fentanyl is, 50-100 times 
stronger. And that is why most of the people are dying, they 
are used to taking 5 or 10 percocets to get high, and you take 
5 fentanyls and you are done. It is so strong that drug dog 
walking by and sniffing it can kill the dog itself. So I think 
we are all becoming more and more aware of that as well.
    I guess we will spend the last minute on treatment plans. 
What is the most effective thing that you are seeing? Ms. Allen 
already mentioned relationships, having relationships. You 
know, we are funding telemedicine more, we certainly do think 
mental health is a big culprit here. I think we are doing more 
in this Congress to reorganize mental health than since John F. 
Kennedy. So I am proud of that. Do you guys see any other thing 
succeed, what is working? Ms. Van Dyke, what do you think is 
working?
    Ms. VAN DYKE. Sure. I think on the small business side of 
things getting small businesses to understand that you don't 
have to fire that person that has the addiction problem. If 
they go through proper rehab through an accredited source and 
they work with a counselor they are less likely to use again. 
And you don't have to retrain them, you can bring them back 
once they have, you know, been cleared through a counselor. And 
they are ready to go again. And giving second chances and 
helping small businesses to understand that giving second 
chances to people is the way to go, for the most part.
    Mr. MARSHALL. All right. I think my time is expired. I 
yield back. Thank you.
    Chairman CHABOT. Thank you very much. The gentleman's time 
has expired. The gentleman from Ohio, Mr. Balderson. It gives 
me great pleasure to yield 5 minutes to you if you would like 
to ask questions. Don't screw it up.
    Mr. BALDERSON. Mr. Chairman, thank you very much. I really 
don't have any questions. I will comment on what Ms. Van Dyke 
says and some of the things that we have done in the State of 
Ohio. And Ms. Allen is only approximately about 45 minutes away 
from my home county, also, so down in Wheeling, West Virginia. 
But, you know, just mostly what Ms. Van Dyke said about what we 
have done in the state legislature since 2009 with the OARRS 
system and many things. And I think we need to continue doing 
that.
    As far as relationships that Ms. Allen said, it is 
something that we don't talk about in communicating with our 
employees, and the importance of that and to help them. I mean 
employers want their employees to be successful, because if 
they are successful the business is successful also. So those 
relationships and to communicate with those employees and 
getting them the help that they need I think is vital. And that 
is what makes it all work.
    So I look forward and I am glad to be honored to sit on 
this panel and hear this. I think it was very interesting this 
morning. So thank you all very much for being here.
    Chairman CHABOT. Thank you very much. The gentleman yields 
back. And, again, we welcome him to the Committee. And I want 
to thank our panel here this morning for your testimony. I 
think it has been very helpful to all the members that were 
here in sharing your valuable insights. The opioid crisis is 
affecting communities really in every corner of our nation. It 
is clear that this epidemic is a monumental problem, but our 
witnesses today have demonstrated how small businesses can work 
with our communities to be a part of the solution. So we thank 
you for helping us to deal with this. The Committee will use 
today's conversation as a way that we can continue to examine 
potential ways to help small businesses find the qualified 
workers that they need to grow their businesses.
    So, again, thank you.
    I would ask unanimous consent that members have five 
legislative days to submit statements and supporting materials 
for the record. Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned.
    Thank you very much.
    [Whereupon, at 11:54 a.m., the Committee was adjourned.]
                            
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                [all] 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
